                                              EMPLOYEE BENEFITS
                                              SECURITY ADMINISTRATION



Office of Inspector General—Office of Audit




                                              EBSA SHOULD MANDATE ELECTRONIC FILING OF
                                              THE FORM 5500 TO IMPROVE
                                              DATA ACCURACY




                                                                   Date Issued: September 30, 2005
                                                                   Report Number: 09-05-002-12-121
U.S. Department of Labor                                September 2005
Office of Inspector General
Office of Audit
                                                        EBSA Should Mandate
                                                        Electronic Filing of the
BRIEFLY…                                                Form 5500 to Improve Data
Highlights of Report Number: 09-05-002-12-121, to
Ann L. Combs, Assistant Secretary for Employee          Accuracy
Benefits Security

WHY READ THE REPORT                                     WHAT OIG FOUND
The primary goal of the EBSA ERISA Filing and           The OIG found that EBSA has not ensured that its
Acceptance System (EFAST) is to process the Form        contractor, NCS-Pearson, met the overall data
5500 series returns for the Department of Labor         accuracy standards specified in the EFAST contract.
(DOL), the Pension Benefit Guaranty Corporation
(PBGC), and the Internal Revenue Service (IRS),         Our audit did disclose, however, that data from
and to provide data from the Form 5500 filings that     electronically filed Form 5500s met the data
are comprehensive, accurate, and timely.                accuracy standards. In fact, our statistical sample
                                                        did not find any errors in electronically filed data.
Annually, EFAST processes approximately 1.2
million Form 5500s. DOL, PBGC, and the IRS rely         Furthermore, electronic filings are much less
heavily on EFAST data to meet their agency              expensive to process than paper filings. Using
missions.                                               EFAST contract prices for the year ended June 30,
                                                        2005, we estimated EBSA could save over $5
To meet the goals of the program, EBSA has              million annually in contract costs if all plans filed
developed a variety of performance standards,           electronically. Therefore, we concluded that EBSA
including standards for data accuracy. This report      should mandate electronic filings of Form 5500s to
discusses opportunities to improve EFAST data           improve accuracy and save money.
accuracy as EBSA develops the next generation of
EFAST.                                                  WHAT OIG RECOMMENDED
                                                        We recommended the Assistant Secretary for
WHY OIG DID THE AUDIT                                   Employee Benefits Security:
The OIG performed an audit of EFAST’s data
accuracy primarily because of the importance of data        •   Mandate electronic filing of the Form 5500.
reliability to DOL, PBGC, and the IRS. These
agencies use the EFAST data to meet their                   •   Consider withholding payment to NCS-
legislatively mandated missions to protect the                  Pearson if accuracy standards are not met.
pensions and other employee benefits of the
American workforce. In addition, the Social Security        •   Include in future system development
Administration (SSA) and numerous legal, economic,              contracts, specific remedies for
and policy organizations throughout the United States           noncompliance with data accuracy
use EFAST data to assist American workers and                   standards.
conduct analysis and research.
                                                        The Assistant Secretary for Employee Benefits
READ THE FULL REPORT                                    Security concurred with the OIG’s central
                                                        recommendation and welcomed the OIG’s support
To view the report, including the scope,                of EBSA’s efforts to mandate electronic filing of the
methodology, and full agency response, go to:           Form 5500. The Assistant Secretary also provided
http://www.oig.dol.gov/public/reports/oa/2005/09-05-    information about actions planned to address the
002-12-121.pdf                                          remaining recommendations.
                                                                            EBSA Should Mandate Electronic Filing
                                                                        of the Form 5500 to Improve Data Accuracy



Table of Contents
                                                                                                                   PAGE

EXECUTIVE SUMMARY ........................................................................................... 3

ASSISTANT INSPECTOR GENERAL’S REPORT ................................................... 7

    1. EBSA Did Not Ensure the EFAST Data Accuracy Standards Were Met ... 8

    2. The Data EFAST Provided to DOL for EDS Were Accurate……….………17


EXHIBITS................................................................................................................. 19

    A. EFAST Processing Flowchart..................................................................... 21

    B. Monthly QC Reports (August 2002-August 2003). …………………………23

    C. Monthly QC Reports (March 2004-March 2005) .……………………………25

    D. Summary of Form 5500 Errors-Critical Data
       Fields………………………………………………………………………………..27

    E. Summary of Form 5500 Errors-Non-Critical Data
       Fields ………………………………………………………………………………29

    F. Summary of 14 Filings with Errors – Critical and
       Non-Critical Data Fields ……………………………………………………… .31

APPENDICES ............................................................................................ ……… . 33

    A. Background.................................................................................................. 35

    B. Objectives, Scope, Methodology, and Criteria.......................................... 37

    C. Acronyms and Abbreviations..................................................................... 41

    D. Agency Response to Draft Report...............................................................43




U.S. Department of Labor—Office of Inspector General                                                                      1
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy



                      Executive Summary
We conducted a performance audit of the Employee Benefits Security
Administration’s (EBSA) ERISA Filing and Acceptance System (EFAST) to
determine if EFAST accurately captured data submitted on Form 5500 filings
submitted by employee benefit plans.

Our interest in EFAST arose primarily because of the importance of data reliability to
the Department of Labor (DOL), the Pension Benefit Guaranty Corporation (PBGC),
and the Internal Revenue Service (IRS). These agencies use EFAST data to meet
their legislatively mandated missions to protect the pensions and other employee
benefits of the American workforce. In addition, the Social Security Administration
(SSA) and numerous legal, economic, and policy organizations throughout the
United States use EFAST data to assist American workers and conduct analysis and
research.

EFAST is EBSA’s system for processing Form 5500s. The Employee Retirement
Income Security Act of 1974 (ERISA) requires employee benefit plans to submit
annual reports. EBSA, PBGC, and the IRS developed the Form 5500 for this
purpose. The Form 5500 is the primary source of employee benefit plan information
for both the Federal Government and the private sector. An EBSA contractor, NCS-
Pearson, developed and operates EFAST. EFAST processes about 1.2 million
Form 5500s per year and distributes data to the IRS, PBGC, and EBSA. (A
simplified flowchart of the EFAST process is shown in Exhibit A.) Ninety-nine
percent of the Form 5500s are submitted on paper, the remaining 1 percent are
electronic.

EBSA’s EFAST data are sent to a third party contractor who edits and reformats it.
Then the contractor provides the data to EBSA for its ERISA Data System (EDS).
EBSA uses EDS for enforcement, policy, and research.

The purpose of the audit was to determine if the data processed by the EFAST
system are accurate when compared to the same data submitted by the filer. The
audit did not look at the accuracy of the data submitted by the filer. Our goal was to
answer the following questions:

1. Did EBSA ensure the EFAST data accuracy standards were met?

2. Are the data EFAST provided to DOL for EDS accurate?




U.S. Department of Labor—Office of Inspector General                                     3
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy



Results

Overall, EBSA has not ensured that its contractor, NCS-Pearson, met the data
accuracy standards specified in the contract. EFAST data from Form 5500s filed on
paper, which account for about 99 percent of the data, have not consistently met all
the accuracy standards EBSA established. Thus, the overwhelming majority of the
data are subject to a level of errors that are unacceptable under the terms of the
EFAST contract.

Our audit did disclose, however, that data from electronically filed Form 5500s met
the data accuracy standards. In fact, our statistical sample did not find any errors in
electronically filed data. However, since this data only comprises about 1 percent of
the data, it did not allow the EFAST data to meet data accuracy standards overall.

The primary reason the data accuracy standards have not been met is EBSA’s
inability to ensure NCS-Pearson raised the level of data accuracy to meet the terms
of the EFAST contract. EBSA officials stated that, although the contract standards
have not been met, the contractor has been making good faith efforts to meet the
standards and has been improving overall data accuracy recently. Despite these
efforts, the standards still have not been met consistently.

As a result, user agencies have had to spend resources adjusting and correcting
data. While this has not prevented the agencies from accomplishing their missions,
it has caused them to unnecessarily use resources and prompted the agencies to
use alternative methods to accomplish their objectives. In addition, incorrect plan
data may have a negative impact on IRS and EBSA enforcement efforts. Errors in
such information as type of plan or a dollar amount could prevent a plan from being
included in a targeting process or being identified as a high risk.

In addition, EBSA has not received the quality for the price paid. NCS-Pearson
agreed in the initial contract to provide the levels of accuracy required by EBSA for
the proposed price. For six years, they have received the proposed price but have
not delivered the required accuracy.

We found electronic filings processed by EFAST were significantly more accurate
than the paper filings processed by the system. In addition, electronic filings are
much less expensive to process than paper filings. Using EFAST contract prices for
Option Year VI (July 1, 2004 through June 30, 2005), we estimate that if EBSA
required all plans to file electronically, EFAST could save over $5 million annually in
contract costs. The combination of increased accuracy at a much lower cost
supports EBSA mandating electronic filing of Form 5500s.

In addition, if EFAST accuracy was improved, user agencies could redirect
resources now used to deal with EFAST accuracy issues.



4                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




In order to realize the cost savings and increased accuracy, EBSA needs to begin
developing the next generation of EFAST soon. The original contract, including all
option years, expired June 30, 2005, and this has forced EBSA to use a 2-year
contract extension just to keep EFAST operating. It is likely that this process will
continue until a new Form 5500 processing system is developed. This has placed
EBSA in a difficult contracting position and may further raise the cost to operate
EFAST. It is imperative that EBSA develop a new, electronic-filing based EFAST
system as soon as possible.

In addition, in any future contracts for Form 5500 processing, EBSA needs to have
the leverage necessary to obtain compliance with data accuracy standards.

Subsequent to our fieldwork, EBSA published proposed regulations to require
electronic filing of Form 5500s. On August 30, 2005, EBSA published, and
requested public comments on, a proposed regulation in the Federal Register that, if
adopted, would require electronic filing of Form 5500s. This followed a March 2004
request for public comment on EFAST electronic filing in general. The proposed
regulation would require electronic filing of all Form 5500s beginning in 2008.

Regarding our second objective, we found that the data EFAST provided to DOL
were accurate.

Recommendations

We recommend the Assistant Secretary for Employee Benefits Security:

   1. Mandate electronic filing of the Form 5500.

   2. Consider withholding payment to NCS-Pearson if accuracy standards are not
      met.

   3. Include in future systems development contracts, specific remedies for
      noncompliance with data accuracy standards.



Agency Response

In response to our draft report, the Assistant Secretary for Employee Benefits
Security generally concurred with the OIG’s first recommendation and welcomed the
OIG’s support of EBSA’s efforts to mandate electronic filing of the Form 5500.
EBSA stated its own analyses have shown that an electronic filing mandate would
result in improved data accuracy, more timely data, and simpler processing for the
government. Additionally, EBSA’s analysis indicated filers and plan participants

U.S. Department of Labor—Office of Inspector General                                   5
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy

benefit significantly from electronic filing from both a monetary and non-monetary
perspective.

The Assistant Secretary also generally agreed with the other two recommendations
and stated that EBSA (1) has considered withholding payment from NCS Pearson
and will discuss doing so with the Program Management Office, the Office of
Procurement Services and the Office of the Solicitor, and (2) will consider and
implement appropriate remedies for noncompliance with data accuracy standards in
EFAST2.

We have included EBSA’s detailed response after the finding in the report. EBSA’s
response in its entirety is attached to this report as Appendix D.


OIG Conclusion

We agree with EBSA’s planned actions.

The recommendations are resolved but not closed. We will close the first
recommendation upon receipt of notification that EBSA has mandated electronic
filing. The second recommendation will be closed when (a) the accuracy standards
have been met, or (b) EBSA has completed discussions with the Office of
Procurement Services and SOL and acted accordingly. The last recommendation
will be closed upon implementation of specific remedies in EFAST2.




6                                    U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC. 20210



                       Assistant Inspector General’s Report



Ms. Ann L. Combs
Assistant Secretary for Employee Benefits Security
U.S. Department of Labor
200 Constitution Ave., N.W.
Washington, DC 20210

We conducted a performance audit of the Employee Benefits Security
Administration’s (EBSA) ERISA Filing and Acceptance System (EFAST) to
determine if EFAST accurately captured data submitted on Form 5500 filings
submitted by employee benefit plans.

We audited EBSA’s EFAST system for the period August 2002 through August
2003. We expanded our scope to include quality control reporting by NCS-Pearson
through March 2005 to find out if the accuracy of more recent processing had
improved. See Appendix A for additional background information.

The purpose of our audit was to determine the accuracy of the EFAST database. To
determine this, our goal was to answer the following questions:

   1. Did EBSA ensure the EFAST data accuracy standards were met?

   2. Are the data EFAST provided to DOL for EDS accurate?

We conducted the audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Our
audit scope, methodology, and criteria are detailed in Appendix B.




U.S. Department of Labor—Office of Inspector General                                   7
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy



Objective 1: Did EBSA ensure the EFAST data accuracy standards were met?

Results and Finding

Overall, EBSA has not ensured that its contractor, NCS-Pearson, met the data
accuracy standards specified in the contract. EFAST data from Form 5500s filed on
paper, which account for about 99 percent of the data, has never consistently met all
the accuracy standards EBSA established. Thus, the overwhelming majority of the
data are subject to a level of errors that are unacceptable under the terms of the
EFAST contract.

Our audit did disclose, however, that data from electronically filed Form 5500s met
the data accuracy standards. In fact, our statistical sample did not disclose any
errors in electronically filed data. However, since this data only comprises about 1
percent of the data, it did not allow the EFAST data to meet data accuracy standards
overall.

The primary purpose of EFAST is, “ . . . to process the Form 5500 series returns for
the DOL, IRS, SSA, and PBGC, and to provide data from the Form 5500 filings that
are comprehensive, accurate, and timely.” 1 (See Exhibit A for a simplified flowchart
of EFAST.) Accomplishing this primary purpose is important because EBSA, the
PBGC, and the IRS rely heavily on EFAST data to accomplish their missions. EBSA
uses the data to conduct research and enforcement activities. The PBGC uses the
data for monitoring the financial position of defined benefit pension plans. IRS uses
EFAST data for employee benefit plan studies, compliance risk assessments, and
enforcement activities. The EFAST process is part of ERISA's overall reporting and
disclosure framework. This framework is intended to ensure that employee benefit
plans are operated and managed in accordance with prescribed standards and that
participants, beneficiaries, and regulators have access to sufficient information to
protect the participants’ and beneficiaries’ rights and benefits. To effectively
accomplish this, the agencies need accurate data.

When EBSA agreed to take over the Form 5500 processing from IRS in the mid-
1990s and began developing an entirely new system, the agency recognized the
need to provide accurate and timely data to users. To help accomplish this, EBSA
established performance standards for timeliness, completeness, and accuracy in
the EFAST request for proposals. Specifically for accuracy of data capture from
Form 5500s submitted by plans, EBSA established three data accuracy standards.
These three standards essentially related to critical data, including entity control or
plan identification data, and other “non-critical” data. Two firms bid on the EFAST
proposal and EBSA awarded the contract, containing the three data capture




1
    See EFAST Contract Number J-9-P-8-0037, Section C, Page 2, C.1.A.2, Overview.

8                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 09-05-002-12-121
                                                        EBSA Should Mandate Electronic Filing
                                                    of the Form 5500 to Improve Data Accuracy




accuracy standards, to National Computer Systems, Inc. (NCS), now NCS-Pearson.
In that contract, NCS agreed to meet the accuracy standards at the cost proposed.2

Specifically, NCS-Pearson agreed to meet the requirements of Section C, Table
C.3.b of the contract in effect through June 30, 2005, which set forth the following
data accuracy standards:

•   Standard 2.4 – 98 percent of all filings shall include accurate entity control fields.
    (Entity control fields include plan name, employer identification number, etc.)
•   Standard 2.5 – 98 percent of all “non-critical fields” shall include correct values.
•   Standard 2.6 – 95 percent of all filings shall include accurate data, excluding non-
    critical fields, received and postmarked dates, entity control fields and document
    locater number.

EBSA Has Not Ensured Data Accuracy Standards Were Met

Overall, EBSA has not ensured the EFAST data accuracy standards were met.
Specifically, data obtained from paper filed Form 5500s, representing about 99
percent of the data, has not consistently met the accuracy standards set forth in the
EFAST contract. While our audit did disclose that electronically filed data did meet
the data accuracy standards, it only compromised 1 percent of the data and this
small percentage did not bring the EFAST data accuracy overall up to required data
accuracy standards. EBSA recognized the noncompliance but has not ensured
NCS-Pearson complied with the contract’s data accuracy standards. As a result,
EBSA and the PBGC spend time correcting errors, and EBSA and IRS enforcement
offices may have missed enforcement opportunities.

EFAST data are obtained from the Form 5500s in three ways: (1) Optical Character
Recognition (OCR) where scanners read entries on hand or typed completed forms,
(2) scanners read bar codes on machine printed Form 5500s which contain the data
in the Form 5500, and (3) electronic filing. EFAST receives about 99 percent of the
data by either OCR or bar codes. (We discuss electronic filing on page 10.) In
these cases, scanners read the data and enter it in EFAST. If the scanners cannot
read something, the system transfers the data to a human operator who reads the
forms and corrects the data.

NCS-Pearson established an Internal Quality Control Unit (IQCU) in order to monitor
the timeliness, accuracy, and completeness standards established by the contract.
For the data accuracy standards, the IQCU completely re-keys 130 filings 3 times
per week (or 20,280 filings per year), issues a “Monthly Quality Control Report” that


2
 EBSA awarded the 1-year contract in 1999. The contract included 6 option years. EBSA has
exercised all option years and the sixth option year ended June 30, 2005. EBSA has recently
awarded a 2-year sole source extension.

U.S. Department of Labor—Office of Inspector General                                          9
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy

calculates and tracks key statistics for each field, and quarterly conducts a meeting
of all EFAST stakeholders to discuss quality control issues.

In addition, EBSA contracted with Mathematica Policy Research (MPR) to conduct
additional analysis of EFAST data accuracy problems. One of these studies is
discussed on page 11.

We reviewed the EFAST data accuracy for: (1) electronic filing and, (2) paper filing.
Our results on the data accuracy of each type of filing are discussed in the following
sections.

Data From Electronic Filings Meets Data Accuracy Standards - We identified about
10,000 electronic filings for plan year 2001 submitted and processed during our audit
period, August 2002 through August 2003, and selected a statistical sample of 37
(including all related schedules). As with the paper filings, we compared the critical
and non-critical data fields transmitted by the filers to the same data fields as
processed by the EFAST database. We found 100 percent (37 of 37) of the filings
tested were completely accurate.

However, electronic filings comprise only about 1 percent of the Form 5500 filings.
Therefore, as discussed in the following section, this did not significantly improve the
overall accuracy of EFAST data.

Data From Paper Filings Do Not Meet Data Accuracy Standards -The accuracy of
the vast majority (99 percent) of EFAST data is dependent on the processing of
paper filings. To evaluate the accuracy of data from paper filings, we reviewed the
quality control work of NCS-Pearson and the results of MPR studies. We also
independently verified a sample of Form 5500 filings.

We reviewed the quality control reports issued by NCS-Pearson’s IQCU for August
2002 through August 2003. To determine if NCS-Pearson was meeting the data
accuracy standards, we compared the data accuracy standards (2.4, 2.5, & 2.6)
listed on page 9, to NCS-Pearson’s actual performance. During our audit period,
NCS-Pearson did not consistently meet any of these data accuracy standards.

The following table shows NCS-Pearson’s average monthly compliance rate for
each of the three data accuracy standards we analyzed. (See Exhibit B for a
graphical presentation of actual performance by month.)




10                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                                      EBSA Should Mandate Electronic Filing
                                                                  of the Form 5500 to Improve Data Accuracy




                                                 Average Monthly
                                                 Compliance Rate
                                              August 2002-August 2003
                                                                              Actual         Required
                Standard                                                    Compliance      Compliance
2.4 - All Filings Shall Contain Accurate
      Entity Control Fields                                                    82%              98%
2.5 - "Non-Critical” Fields Shall be
      Accurate                                                                97.3%             98%
2.6 - All Filings Shall be Accurate,
      excluding "Non-Critical" Fields                                         54.8%             95%
Source: OIG analysis of NCS-Pearson’s Monthly Quality Control Reports for
        August 2002 through August 2003.


These results mirrored an earlier study MPR performed on behalf of EBSA. In 2002,
MPR analyzed Form 5500 plan year 2000 paper filings. EBSA contracted for this
analysis to investigate critical data quality and processing problems that either (1)
had been uncovered recently by Government end-users of EFAST data (DOL, IRS,
SSA, and PBGC) or (2) had continued to compromise the quality of data for multiple
plan years. MPR reviewed 58 paper (hand-printed and machine printed) Form
5500s with Schedules H and I submitted by filers and processed during plan year
2000. MPR compared the data fields on those Form 5500s and the two schedules
to the same data fields as processed by the EFAST system. The results from the
MPR review disclosed that 59 percent3 of the filings tested were accurate, well
below the contract standard of 95 percent.

We independently confirmed the NCR-Pearson and MPR results by verifying the
data accuracy of a sample of Form 5500 paper filings processed from August 2002
through August 2003. Specifically, we selected a judgmental sample of 35 paper
(hand-printed and machine printed) plan year 2001 Form 5500s (including all related
schedules) submitted by filers for plan year 2001 and processed by the EFAST
system between August 2002 and August 2003. Although we compared all data,
critical and non-critical, we concentrated on the critical field accuracy of the overall
filings (Standard 2.6).

We found only 62 percent (23 of 35) of the filings tested were accurate. Twelve of
the 35 filings included at least one error in a critical field. Some included several
errors. (See Exhibit D for more detail.) Examples of errors included: plan
erroneously identified as a multi-employer plan when it was a single employer plan
and a $1 million bond being shown as $1. These are errors in fields EBSA
considers critical. In other instances, the EFAST system shifted decimal points to
the right of where the original schedule prepared by the filer placed it (i.e., The filer
submitted $874.50. EFAST processed $87450).

3
    Computed from MPR Memo No. 8961-11, April 15, 2003, Table III.2.
    The Table shows MPR found errors in 34 of the 58 sampled filings.

U.S. Department of Labor—Office of Inspector General                                                     11
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




Reasons Standards Not Met

During our analysis and discussions with EBSA, MPR, and NCS-Pearson, we found
that there were many technical explanations for the errors. For example, the Form
5500 generally changes each year, requiring software changes to be made which
increases the error rate. In addition, the scanning technology itself for paper filings
is not totally reliable and requires human oversight and correction of scanning errors.
Both EBSA and NCS-Pearson have processes to deal with these technical
problems.

The primary reason the data accuracy standards have not been met is that, while
EBSA has been aware of this lack of compliance and has pressed NCS-Pearson to
improve, EBSA has not been able to obtain compliance. We believe this is for two
reasons.

First, NCS-Pearson resisted spending resources necessary to process the data
accurately. NCS-Pearson staff told us that to achieve compliance, they would have
to put more resources into their data correction process and that doing so was cost
prohibitive. Second, EBSA officials stated that, although the contract standards
have not been met, the contractor has been making good faith efforts to meet the
standards and has been recently improving overall data accuracy. EBSA officials
did not recommend legal action be pursued.

While the contract did establish liquidated damages for failing to remedy
deficiencies, the contract also set a maximum of $50,000 per standard, not to
exceed $200,000 in any one year. EBSA officials discussed their legal options with
the Office of the Solicitor but were told it was questionable whether EBSA could
prevail in any legal action. Considering the maximum liquidated damages were
$200,000 per year, these discussions with legal counsel disclosed the cost of
recovering damages could outweigh the money actually recovered. Based on these
discussions, EBSA officials decided the best course of action was to continue to
work cooperatively with the contractor to improve accuracy.

NCS-Pearson, however, based its proposal to develop and operate EFAST on these
standards. They agreed to produce the accuracy required at the agreed prices.
Since EBSA has paid the proposed prices, but NCS-Pearson has not met the data
accuracy standards, EBSA has, in essence, paid for quality it did not receive. The
fact that meeting the standards may have taken more resources than originally
estimated does not justify operating below standards.

Currently, EBSA continues to work very closely with NCS-Pearson to achieve
compliance with the data accuracy standards. The following chart shows NCS-
Pearson’s average monthly accuracy for March 2004 through March 2005. (See
Exhibit C for a graphical presentation of recent actual performance by month.)


12                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                                     EBSA Should Mandate Electronic Filing
                                                                 of the Form 5500 to Improve Data Accuracy




                                          Average Monthly
                                          Compliance Rate
                                        March 2004-March 2005
                                                                       Actual                 Required
               Standard                                              Compliance              Compliance
2.4 - All Filings Shall Contain
       Accurate Entity Control Fields                                   92.9%                     98%
2.5 - "Non-Critical Fields Shall be
       Accurate                                                         99.4%                     98%
2.6 - All Filings Shall be Accurate,
       excluding "Non-Critical" Fields                                  62.9%                     95%
Source: OIG analysis of NCS-Pearson’s Monthly Quality Control Report for March 2004 through March 2005.


While NCS-Pearson’s more recent average monthly compliance rates show
improvement from the earlier periods shown on page 11, NCS-Pearson still did not
consistently meet the required data accuracy for standards 2.4 and 2.6.

In summary, the testing results of NCS-Pearson, MPR, and OIG have all shown that
NCS-Pearson has not consistently met the contract’s three data accuracy standards.

End Users Expend Resources to Correct EFAST Data

We discussed the effect of EFAST inaccuracies with several EBSA operating offices,
the PBGC and the IRS. All end users we contacted stated the current level of
accuracy does not prevent accomplishing their mission. However, several end user
agencies had developed additional procedures to compensate for inaccuracies or
had devoted additional resources to correcting the data they received. Since EFAST
is the only source of this data, end users have had to make these accommodations.

For example, EBSA Office of Policy and Research officials told us they spend staff
resources to perform special analyses to correct EFAST data and have contracted
for special services to adjust statistical data for EFAST data inaccuracies. The
PBGC informed us that they spend staff resources reviewing and correcting EFAST
data received each month.

In addition, data inaccuracies could adversely affect EBSA and IRS enforcement
efforts. For example, the multi-employer plans noted earlier, that EFAST recorded
as single-employer plans, would not be on any enforcement targeting analysis
involving multi-employer plans. The decimal moving errors in EFAST could make
plan financial information misleading to enforcement analysts. We realize both
EBSA and IRS have huge enforcement universes and these errors may or may not
actually impact their efforts, but we believe the better the data accuracy, the better
the enforcement results.

U.S. Department of Labor—Office of Inspector General                                                      13
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




Electronic Filing is Advantageous

Electronic filing has several advantages over paper filing. First, as shown earlier,
data from electronic filing is much more accurate. Based on information provided by
EBSA, NCS-Pearson, and our own analysis, we believe this is for several reasons.
Primary among these reasons is that the present EFAST system requires
transforming the data from one format to another. OCR involves transforming the
data from machine or hand print to electronic format. Bar codes, while more
accurate, still involve transforming bar codes to electronic data. Both OCR and bar
codes involve human intervention, which increases opportunity for errors.

In addition, e-filing can be significantly less expensive. Based on Option Period VI
EFAST contract prices4, if all filers submitted their Form 5500s electronically, EBSA
could save approximately $5 million per year. We computed this savings based on
the difference in processing costs for paper filings versus electronic filings as
detailed in the EFAST contract. We used Option Period VI since it contained the
most recent competitively bid prices. We used the estimated number of filings also
included in the EFAST contract. For example, for Option Period VI, the contract
shows processing cost of $5.08 for each paper Form 5500 (Pure Fringe) versus a
cost of $2.14 for each electronic Form 5500. The contract also includes processing
an estimated 1.2 million Form 5500s, excluding related schedules. We used
contract estimates for each schedule (both the number submitted and price) to arrive
at our total savings.

However, EBSA has not realized the full benefits of electronic filing through the
current EFAST system because filers are not using the electronic filing option. The
vast majority of filers submit Form 5500s on machine-printed forms (72 percent).
Most other filers submit hand printed Form 5500s (27 percent) on either government
printed or computer produced forms. About 1 percent, or roughly 10,000 Form
5500s, are filed electronically. In addition, the vast majority of filers prepare the
Form 5500s on computers, regardless of whether they actually file the Form 5500
electronically. While we realize electronic filing may be more costly to filers (at least
initially during the transition from paper to electronic), we believe the benefits of
electronic filing outweigh these costs.

The ERISA Advisory Council came to the same conclusion after investigating
electronic reporting. In its November 8, 2002, report, “Report of the Working Group
on Electronic Reporting,” the Council cited the low usage of electronic filing, and
attributed the problem to several factors, including:

          Signature requirements: Obtaining an electronic signature code was
          cumbersome and time-consuming.

4
    Option year 6, the last year of the original contract, ended June 30, 2005.

14                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 09-05-002-12-121
                                                       EBSA Should Mandate Electronic Filing
                                                   of the Form 5500 to Improve Data Accuracy




       No economic benefit: There is no benefit to the filer of electronic filing. There
       are no refunds to process more quickly. The only benefit is to the
       government.
       Required Software: Filers must purchase DOL-approved software, which may
       be expensive and not widely available.

The Council also concluded that EBSA should mandate electronic filing. However,
the Council questioned whether the current EFAST system could provide the desired
efficiencies and cost savings.

The Government Accountability Office (GAO) has come to the same conclusion. In
a June 2005 report5, GAO recommended that, given the improved timeliness and
accuracy associated with electronic filing, EBSA and the other agencies should
require electronic filing of the Form 5500. In response, EBSA stated it is considering
different approaches to replacing the EFAST system, including mandating electronic
filing.

EBSA is Developing EFAST II

The current EFAST system is approaching the end of its lifecycle. According to
EBSA management, EFAST2 is in the, “Conceptual Planning Phase” in the Capital
Planning and Investment Control Process as defined by DOL’s System Development
Cycle Management manual. In addition, if the FY2007 business case submitted for
the EFAST2 is approved and the project is fully funded, EBSA will progress to the,
“Planning and Requirements Definition Phase” and then, “Design Phase.”

Given the policy framework established by the Government Paperwork Elimination
Act (GPEA), the E-Government Act of 2002 and the advances in technology since
the original system was designed, we believe the time is right for EBSA to mandate
electronic filing of the Form 5500 and all related schedules. In addition, as EBSA
moves forward into a new contract to develop EFAST II, it is imperative that the
agency incorporate additional leverage into the contract to enable EBSA to take
effective action if the new contractor does not meet accuracy standards.

Subsequent Events

Subsequent to our fieldwork, EBSA published proposed regulations to require
electronic filing of Form 5500s. On August 30, 2005, EBSA published, and
requested public comments on, a proposed regulation in the Federal Register that, if
adopted, would require electronic filing of Form 5500s. This followed a March 2004


5
 United States Government Accountability Office Report GAO-05-491 entitled “Government Actions
Could Improve the Timeliness and Content of Form 5500 Pension Information,” dated June 2005.

U.S. Department of Labor—Office of Inspector General                                         15
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy

request for public comment on EFAST electronic filing in general. The proposed
regulation would require electronic filing of all Form 5500s beginning in 2008.

In its discussion regarding the proposed regulation, EBSA estimated the discounted
net savings to filers over the first 5 years to be $23 million. Additional benefits are
expected to accrue to the government and the public through substantially reduced
processing costs and more timely availability of accurate filing data for enforcement
and public benefit use.


Recommendations

We recommend that the Assistant Secretary for Employee Benefits Security:

1. Mandate electronic filing of Form 5500.

2. Consider withholding payment to NCS-Pearson if accuracy standards are not
   met.

3. Include in future systems development contracts, specific remedies for
   noncompliance with data accuracy standards.


Agency Response

EBSA concurred with the OIG’s central recommendation and welcomed OIG’s
support of EBSA’s efforts to mandate electronic filing of the Form 5500. EBSA
stated its own analyses have shown that an electronic filing mandate would result in
improved data accuracy, more timely data, and simpler processing for the
government. Additionally, EBSA’s analysis indicated filers and plan participants
benefit significantly from electronic filing from both a monetary and non-monetary
perspective. With regard to the specific recommendations, EBSA stated:

       1. EBSA supports mandating electronic filing of the Form 5500 and has
          issued a Notice of Proposed Regulation in the Federal Register on
          August 20, 2005, to this effect.

       2. EBSA has considered withholding payment to NCSP if accuracy
          standards are not met, and will discuss doing so with the PMO to
          determine that it is feasible to do so and that there would be no
          unintended adverse consequences. This approach would also have to be
          taken with the approval and assistance of the Department’s Office of
          Procurement Services and SOL.

       3. EBSA will consider, and implement as appropriate, specific remedies for
          noncompliance with data accuracy standards in EFAST2.


16                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




OIG Conclusion

We agree with EBSA’s planned corrective actions.

The recommendations are resolved but not closed. We will close the first
recommendation upon receipt of notification that EBSA has mandated electronic
filing. The second recommendation will be closed when (a) the accuracy standards
have been met, or (b) EBSA has completed discussions with the Office of
Procurement Services and SOL and acted accordingly. The last recommendation
will be closed upon implementation of specific remedies in EFAST2.



Objective 2: Are the data EFAST provided to DOL for EDS accurate?

Results

The data EFAST provided to DOL for EDS were accurate. This accuracy
assessment is limited to whether the data provided to DOL accurately reflect the
data recorded in EFAST – not that the data recorded in EFAST accurately reflect
what the filer submitted.

As part of the 2002 MPR data quality analysis discussed earlier, MPR had tested the
accuracy of data EFAST provided to EDS. We reviewed MPR’s methodology and
testing. MPR had selected 58 random filings, stratified by type of filing, and tested
the accuracy of the data EFAST provided to EDS. Further, we reviewed corrective
actions EBSA and NCS had taken on MPR recommendations. We found that EBSA
and NCS had taken appropriate action.

In addition, we selected 35 filings received between August 2002 and August 2003
and compared the data fields as recorded in EDS to the EFAST system. We found
no errors.

Therefore, we concluded that the data provided to DOL for EDS are accurate.




Elliot P. Lewis
April 15, 2005



U.S. Department of Labor—Office of Inspector General                                  17
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




Exhibits




U.S. Department of Labor—Office of Inspector General                                  19
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                     EBSA Should Mandate Electronic Filing
                                                 of the Form 5500 to Improve Data Accuracy


                                                                              EXHIBIT A


                            EFAST Processing Flowchart

 Form 5500
 Paper Filings               OCR/
                                                          Error?        Y    Manual Data
 (99 %)                    Barcode
                                                           Y/N               Correction
                              Data
                              Scan




     Form 5500                                            N
     Electronic
     Filings (1%)


                                     NCS-Pearson
                                      EFAST Data
                                   Processing Center
                                     Lawrence, KS




                                     Form 5500
                                     Database
                                     Lawrence,
                                        KS




                                                                       IRS
            EBSA                          PBGC


                                                                                         SSA




U.S. Department of Labor—Office of Inspector General                                   21
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                                                 EBSA Should Mandate Electronic Filing
                                                                             of the Form 5500 to Improve Data Accuracy


                                            EXHIBIT B
                           Monthly QC Reports (August 2002-August 2003)


                                           Monthly QC Reports
                               Standard 2.4-All filings shall contain accurate
                                            entity control fields

                        120%
                        100%
          % Compliant




                         80%
                                                                                             Actual
                         60%
                                                                                             Standard = 98%
                         40%
                         20%
                          0%
                                         03


                                                                  3
                              02




                                           2




                                                                           03

                                                                                      03
                                          2




                                                              r-0
                                        -0
                                       -0




                                      b-
                          g-




                                                                       n-

                                                                                  g-
                                     ec
                                     ct




                                                             Ap
                                   Fe
                         Au




                                                                      Ju

                                                                                 Au
                                   O

                                   D




                                                         Month

                              Source: NCS-Pearson IQCU Reports (August 2002 through August 2003)




                                        Monthly QC Reports
                          Standard 2.5-All "non-critical fields" shall contain
                                            correct values

                        99%
                        98%
          % Compliant




                        97%                                                                  Actual
                        96%                                                                  Standard = 98%
                        95%
                        94%
                                                         3

                                                                  3
                              02




                                                2




                                                                             3

                                                                                      03
                                       2




                                                        0

                                                               r-0
                                               -0




                                                                        -0
                                     -0




                                                     b-
                           g-




                                                                                   g-
                                           ec




                                                                         n
                                   ct




                                                             Ap
                                                    Fe
                         Au




                                                                                 Au
                                                                      Ju
                                   O

                                           D




                                                         Month

                              Source: NCS-Pearson IQCU Reports (August 2002 through August 2003)




U.S. Department of Labor—Office of Inspector General                                                               23
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy


                                         Monthly QC Reports
                             Standard 2.6-All filings shall contain accurate
                                 data, excluding "non-critical fields"

                         100%
           % Compliant


                          80%
                          60%                                                           Actual
                          40%                                                           Standard = 95%
                          20%
                           0%
                              02




                                                                               03
                                          2


                                                   2

                                                           03


                                                                      3

                                                                               03
                                                -0
                                       -0




                                                                  r-0
                            g-




                                                         b-




                                                                            n-


                                                                             g-
                                              ec
                                   ct




                                                                Ap
                          Au




                                                       Fe




                                                                          Au
                                                                          Ju
                                   O

                                              D




                                                          Month

                             Source: NCS-Pearson IQCU Reports (August 2002 through August 2003)




24                                                          U.S. Department of Labor—Office of Inspector General
                                                                                Report Number: 09-05-002-12-121
                                                                                             EBSA Should Mandate Electronic Filing
                                                                                         of the Form 5500 to Improve Data Accuracy


                                                                                                                      EXHIBIT C
                                  MONTHLY QC REPORTS (MARCH 2004-MARCH 2005)


                                                        Monthly QC Reports
                                            Standard 2.4-All filings shall contain accurate
                                                         entity control fields

                              100%
                                      95%
          % Compliant




                                      90%                                                                Actual
                                      85%                                                                Standard = 98%
                                      80%
                                      75%
                                                     4
                                            4




                                                                                                   5
                                                                      04


                                                                                4

                                                                                         05
                                                             4
                                                    -0
                                          -0




                                                                                                  -0
                                                          l-0




                                                                               -0
                                                                  p-




                                                                                     n-
                                                ay
                                       ar




                                                                                              ar
                                                                           ov
                                                         Ju

                                                                 Se




                                                                                    Ja
                                      M




                                                                                              M
                                                M




                                                                           N




                                                                      Month

                                            Source: NCS-Pearson IQCU Reports (March 2004 through March 2005)



                                                          Monthly QC Reports
                                                Standard 2.5-All "non-critical fields" shall
                                                         contain correct values

                                      100%
                        % Compliant




                                       99%
                                       98%                                                              Actual
                                       97%                                                              Standard = 98%
                                       96%
                                       95%
                                               4
                                               4




                                                                                         5
                                             04


                                               4

                                                                                        05
                                               4
                                            -0
                                            -0




                                                                                       -0
                                            -0
                                           l-0

                                          p-




                                                                                      n-
                                         ay
                                         ar




                                                                                     ar
                                         ov
                                        Ju

                                       Se




                                                                                    Ja
                                       M




                                                                                    M
                                       M




                                       N




                                                                      Month

                                            Source: NCS-Pearson IQCU Reports (March 2004 through March 2005)




U.S. Department of Labor—Office of Inspector General                                                                           25
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy


                                        Monthly QC Reports
                            Standard 2.6-All filings shall contain accurate
                                data, excluding "non-critical fields"

                         100%
           % Compliant


                          80%
                          60%                                                             Actual
                          40%                                                             Standard = 95%
                          20%
                           0%
                                 4
                                4




                                                                        5
                                                  04


                                                               4

                                                                       05
                                                   4
                              -0
                              -0




                                                                      -0
                                                            -0
                                             l-0

                                                p-




                                                                     n-
                           ay
                            ar




                                                                    ar
                                                          ov
                                           Ju

                                              Se




                                                                   Ja
                          M




                                                                   M
                          M




                                                         N
                                                      Month

                                Source: NCS-Pearson IQCU Reports (March 2004 through March 2005)




26                                                     U.S. Department of Labor—Office of Inspector General
                                                                           Report Number: 09-05-002-12-121
                                                                EBSA Should Mandate Electronic Filing
                                                            of the Form 5500 to Improve Data Accuracy




                                                                                             EXHIBIT D



                 SUMMARY OF FORM 5500 ERRORS-CRITICAL DATA FIELDS

      SAMPLE          FORM         EBSA DEFINED CRITICAL                   VALUE PER          VALUE PER
      Number                            DATA FIELD                          ORIGINAL            EFAST
                                                                             FILER
           1            5500       Entity Type                             Single Employer    Multi-Employer
           5            5500       Active Participants                            4                Blank
                        5500       Retired or Separated                           0                Blank
                                   Participants
                        5500       Other Retired or Separated                    1                Blank
                        5500       Number with Account Balances                  5                Blank

                        5500       Number Participants Terminated              0                  Blank
                        5500       Participants Separated                      1                  Blank
                        5500       Pension Benefit Schedules                   1                  Blank
                        5500       Financial Schedules                         1                  Blank
                        SSA        Employer Identification Number          XXXXXXXXX6             Blank
                                   Check Box for Additional
                        SSA        Participants                                 Yes                No
                        SSA        Check Box for                                Yes                No
                                   Government/Church
                        SSA        Total Value                                  3875              38.75
                     Schedule T    Plan's Ratio Percentage                      100                 0
                     Schedule T    Disaggregate Ratio                            0                  1
                     Schedule T    Check Box for Plan Satisfies                 Yes                No
                                   Coverage Requirement
          6            5500        Three Digit Plan Number                      508                502
          10           5500        Three Digit Plan Number                      026                457
          12         Schedule I    Amount of Fidelity Bond                    30,000                0
          13           5500        Three Digit Plan Number                      199                001
          14         Schedule I    Amount of Fidelity Bond                   1,000,000              1
          15           5500        Other Retired or Separated                    4                Blank
                       5500        Pension Benefit Provided                     1A                Blank
          24         Schedule A    Check Box for Benefit &                      Yes                No
                                   Contract Type




6
    Actual form contained identifying information which we have removed.

U.S. Department of Labor—Office of Inspector General                                                    27
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy



     SAMPLE      FORM       EBSA DEFINED CRITICAL              VALUE PER          VALUE PER
     Number                      DATA FIELD                     ORIGINAL            EFAST
                                                                 FILER
       35      Schedule I   Check Box for Partnership/Joint         Yes                No
                            Venture
               Schedule I   Check box for Employer Real             Yes                No
                            Property
               Schedule I   Check Box for Employer                  Yes                No
                            Securities
               Schedule I   Check Box for Participant               Yes                No
                            Loans
               Schedule I   Check Box for Loans (other)             Yes                No
               Schedule I   Check Box for Tangible Personal         Yes                No
                            Property
               Schedule I   Name of Plan                      Actual Plan Name6        Blank
               Schedule I   EIN                                 XX6-0713062        XX6-0000910
               Schedule I   PN                                        15               Blank
               Schedule T   EIN                                  XX7-912062        XX6-0000910
       36         5500      Pension Benefit Schedules                Blank               1
               Schedule A   Insurance & Fees Paid                    874.5              874
               Schedule A   Amount of Commissions Paid               874.5             87450
               Schedule A   Fees Paid Amount                         3600            3600000
               Schedule A   Premiums Paid to Carrier              43725.08           4372508
               Schedule C   Name of Plan                      Actual Plan Name6        Blank
               Schedule C   EIN                                 91-XXXXXXX6       00-XXXXXXX6
               Schedule C   Service Provider Fee                    42608             426081
               Schedule C   Service Provider Code                     13                 3
       38         5500      Entity Type                        Single Employer    Multi-Employer
                  5500      Check Box for Collectively                Yes               No
                            Bargained Plan
                  5500      Check Box for Extension under           Yes                No
                            DFVC Program
                  5500      Last Year-PN                             2                 800




28                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 09-05-002-12-121
                                                     EBSA Should Mandate Electronic Filing
                                                 of the Form 5500 to Improve Data Accuracy




                                                                               EXHIBIT E


              SUMMARY OF FORM 5500 ERRORS-NON-CRITICAL DATA FIELDS


                                 EBSA DEFINED NON-            VALUE PER
 SAMPLE                              CRITICAL                  ORIGINAL       VALUE PER
 NUMBER           FORM               DATA FIELD                 FILER          EFAST
                                                                         6
      5             SSA       Sponsor's Telephone Number 5 digit number            3
                    SSA       Administrator's Phone Number 10 digit number6    85043270
      7             SSA       Administrator's Phone Number 10 digit number6      Blank
                                Contract or Identification
     24          Schedule A                                   G603625          6603625
                                         Number
                                 Check Box for Waiver of
     35          Schedule I    Independent Qualified Public      Yes             No
                                   Accountant's Report
     36         Schedule C    Service Provider Plan Position    Employer6      Blank
                                Contract or Identification
     37          Schedule A                                  6VLB66RO96697 CLBGCR096697
                                         Number
     38            5500       Sponsor's Telephone Number 10 digit number6      Blank




U.S. Department of Labor—Office of Inspector General                                      29
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




                                                                             EXHIBIT F




                  SUMMARY OF 14 FILINGS WITH ERRORS --
                  CRITICAL AND NON-CRITICAL DATA FIELDS
                                ERROR IN EBSA          ERROR IN EBSA
                                   DEFINED                DEFINED
                    SAMPLE      CRITICAL DATA           NON-CRITICAL
                    NUMBER          FIELD                DATA FIELD
                         1              Y                   N
                         5              Y                   Y
                         6              Y                   N
                         7              N                   Y
                        10              Y                   N
                        12              Y                   N
                        13              Y                   N
                        14              Y                   N
                        15              Y                   N
                        24              Y                   Y
                        35              Y                   Y
                        36              Y                   Y
                        37              N                   Y
                        38              Y                   Y




U.S. Department of Labor—Office of Inspector General                                  31
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                     PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




Appendices




U.S. Department of Labor—Office of Inspector General                                  33
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




34                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




                                                                          APPENDIX A
BACKGROUND

The Employee Retirement Income Security Act of 1974 (ERISA), and provisions of
the Internal Revenue Code, assign responsibility for regulating and protecting
employee benefit plans to three Federal Agencies: the DOL, the IRS, and the PBGC.
Within the DOL, the EBSA has responsibility for oversight of employee benefit plans.

In order to meet their oversight responsibilities, all three agencies use information
provided by employee benefit plans in their annual reports. In addition, the SSA
uses information from the annual reports to help retirees collect pension benefits.
These annual reports use the Form 5500 series for providing the necessary
information to all four agencies. Until 2000, employee benefit plan administrators
filed the annual reports with the IRS. In August 2000, EBSA took over the
processing and implemented a new processing system. The system is known as the
ERISA Filing and Acceptance System or EFAST. EFAST receives all Form 5500s
and related schedules, processes the data, and provides each agency with specific
data related to its mission. Each Form 5500 with its related schedules may have
over 750 data fields that EFAST must capture. (Exhibit A of this report shows a
simplified flowchart of the EFAST process.)

Generally, EFAST processes the Form 5500s in four basic formats. EFAST accepts
hand printed forms from filers and scans the forms through OCR into the database.
EFAST also processes machine printed Form 5500s in the same manner. EFAST,
additionally, has the capability to read bar codes placed on the Form 5500s by
certain software packages. These bar codes include the identical information that is
recorded on the actual Form 5500. Lastly, EFAST accepts electronic filings from
filers using approved software, via either modem or other electronic media that the
filer mails to the EFAST contractor.

In addition, for each paper filing, EFAST records an image of the filing itself. This
image is essentially a picture of the Form 5500 and schedules received.

To access EFAST data directly, EFAST developed the End Users Access System
(EUAS). The EUAS allows users to view either the filing image or recorded data.
EUAS only allows users to access EFAST one Form 5500 at a time. EUAS does not
allow or produce data queries or analysis.

In order to do queries or analysis, each agency has developed its own subsystem.
EBSA has developed EDS for its purposes. EDS is an electronic system fully
capable of performing queries, sorts and other analysis on EFAST data. Each week
EFAST provides data to an EBSA contractor who processes the data into a format
EDS can use. Theoretically, EDS is an exact replica of EFAST, with only the DOL


U.S. Department of Labor—Office of Inspector General                                    35
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy



information in it. For example, DOL does not receive any information from the
Schedule SSA since the information relates only to the IRS and SSA.

DOL first issued a Request for Proposals (RFP) for the development and operation
of EFAST to replace the IRS process in 1997. In September 1998, DOL issued a
contract to National Computer Systems, Inc. (now NCS-Pearson) to develop the pilot
system. In August 2000, EFAST started to actually process Form 5500 Series
filings. The original contract expired on June 30, 2005, and consisted of a 1-year
base-period and 6 option years. EBSA extended the contract for 2 years in June
2005.

EFAST processes approximately 1.2 million Form 5500 Series returns filed annually
by plan administrators and sponsors. The overwhelming majority of filers submit
their returns on paper, with only about 1 percent submitting them electronically.

Since EFAST’s inception in 1997, EBSA has spent about $72.4 million developing
and operating the system. In 2000, the system became operational. Since that
time, EFAST has cost on average $14.8 million per year.




36                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy


                                                                          APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

   We conducted a performance audit of the EBSA EFAST system to determine if
   EFAST accurately captured data submitted on Form 5500 filings submitted by
   employee benefit plans. We audited the EFAST process from receipt of Form
   5500 filings and processing at the EFAST Processing Center to reporting of the
   data to the four Federal agencies. Our goal was to answer two questions.

   •    Did EBSA ensure the EFAST data accuracy standards were met?

   •    Are the data EFAST provided to DOL for EDS accurate?


Scope

Our audit scope covered plan year 2001 filings processed from August 2002 through
August 2003. During this time period, EFAST processed approximately 1 million
Form 5500s. We used the results of NCS-Pearson’s verification process which
tested approximately 20,280 Form 5500s during the year. We also used the results
from an MPR study that had a sample of 58 Form 5500s. We independently verified
data from 35 paper Form 5500s and 37 electronically filed Form 5500s. We
quantified the results and reported on the amount of errors identified. Our work
included testing EDS data to ensure that the Form 5500 data DOL received
accurately reflected the EFAST database.

We tested the paper Form 5500s to assess the accuracy of the prevailing method of
filing Form 5500. We separately tested electronic filings to assess the accuracy for
this method of filing Form 5500s. We did not audit the accuracy of the data
submitted on the Form 5500 by the filers.

We expanded our scope to include quality control reporting by NCS-Pearson
through March 2005 to find out if the accuracy of more recent processing had
improved.

A performance audit includes obtaining an understanding of internal controls
considered significant to the audit objectives and testing compliance with significant
laws, regulations, and other compliance requirements. In order to plan our
performance audit, we considered whether internal controls considered significant to
the audit were properly designed and placed in operation.

The scope of the audit included evaluating EFAST operations for compliance with
applicable laws, regulations, and EBSA policies and procedures for the period

U.S. Department of Labor—Office of Inspector General                                  37
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




August 2002 through August 2003. Specific areas evaluated included data
distribution, timeliness, and accuracy.

We conducted fieldwork at the EFAST Processing Center in Lawrence, Kansas, and
at EBSA EFAST offices in Washington, D.C. We conducted our fieldwork between
December 2, 2003, and April 15, 2005.

We conducted this audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States.

Methodology

To meet our objectives we reviewed the initial contract between EBSA and NCS-
Pearson, including modifications applicable during our audit period, policies and
procedures, and quality control procedures obtained from EBSA. We conducted
interviews with EBSA, PBGC, and IRS officials.

Additionally, we reviewed a report issued by MPR, the EBSA contractor who
periodically monitors NCS-Pearson’s Form 5500 EFAST filing process. To evaluate
the reliability of MPR’s analysis, the OIG statistician reviewed MPR’s sampling and
testing methodology. We used the details of MPR’s report and compared them to
our results.

To determine the accuracy of data after EFAST processing, we judgmentally
selected a sample of 35 Form 5500 paper filings. We then compared each data
element, critical and non-critical, recorded in the EFAST system to the Form 5500
data submitted by the filer. Exhibits D through F show the errors found in critical and
non-critical data fields.

We then used the same filings and compared the same data in the EFAST system to
the data in the EDS.

We also selected a statistical sample of 37 Form 5500 electronic filings projected
from the total universe of 10,327. We then obtained a copy of the electronic filings in
their transmitted format and compared the two for consistency.

We did not intend to determine if the filer submitted accurate plan data. Therefore,
we did not test to see if the user completed the form accurately.

Our work on established internal controls included reviewing policies and procedures
and contract documents, as well as interviewing key personnel. We gained an
understanding of the data flows and documented a description of the controls. Our
testing of internal controls was focused only on the controls related to the audit
objective and was not intended to form an opinion on the adequacy of internal


38                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




controls overall, and we do not render such an opinion. Weaknesses noted in the
testing are discussed in the finding related to Objective 1 of this report.

In order to determine compliance with laws, regulations and EBSA policies, we
performed general tests of data and interviewed key personnel.

Our testing, related to compliance with laws and regulations and EBSA policies,
focused only on those relevant to the audit objective and was not intended to form
an opinion on compliance with them. Instances of noncompliance are discussed in
the finding related to Objective 1 of this report.

Criteria

We used the following criteria to perform this audit:

   •   Title I of the Employee Retirement Income Security Act (29 U.S.C. 1001), and
   •   Contract # J-9-P-0037 & Modifications, between EBSA and NCS-Pearson,
       dated June 1, 1998.




U.S. Department of Labor—Office of Inspector General                                  39
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




40                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy


                                                                          APPENDIX C
ACRONYMS AND ABBREVIATIONS

DC                   District of Columbia
DOL                  Department of Labor
EBSA                 Employee Benefits Security Administration
EDS                  ERISA Data System
EFAST                ERISA Filing and Acceptance System
ERISA                Employee Retirement Income Security Act of 1974
EUAS                 End User Access System
GAO                  Government Accountability Office
GPEA                 Government Paperwork Elimination Act
IQCU                 Internal Quality Control Unit
IRS                  Internal Revenue Service
KS                   Kansas
MPR                  Mathematica Policy Research Corporation
NCS                  National Computer Systems – Pearson
OCR                  Optical Character Recognition
OIG                  Office of Inspector General
PBGC                 Pension Benefit Guaranty Corporation
RFP                  Request for Proposal
SSA                  Social Security Administration




U.S. Department of Labor—Office of Inspector General                                  41
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




42                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy


                          APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                  43
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




44                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




U.S. Department of Labor—Office of Inspector General                                  45
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




46                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




U.S. Department of Labor—Office of Inspector General                                  47
Report Number: 09-05-002-12-121
EBSA Should Mandate Electronic Filing
of the Form 5500 to Improve Data Accuracy




48                                   U.S. Department of Labor—Office of Inspector General
                                                         Report Number: 09-05-002-12-121
                                                    EBSA Should Mandate Electronic Filing
                                                of the Form 5500 to Improve Data Accuracy




U.S. Department of Labor—Office of Inspector General                                  49
Report Number: 09-05-002-12-121
